Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  EXAMINING FLUCTUATIONS IN 

   AVERAGE MANUFACTURER 

           PRICES





                    Daniel R. Levinson

                    Inspector General 


                       May 2007

                     OEI-03-06-00350

                Office of Inspector General 

                                       http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement
and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the reports
also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties
on health care providers and litigates those actions within HHS. OCIG also represents OIG in
the global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
  Δ         E X E C U T I V E                               S U M M A R Y                                           



                    OBJECTIVE
                    To determine the extent to which average manufacturer prices (AMP)
                    fluctuated between the second quarter of 2005 and the second quarter of
                    2006.


                    BACKGROUND
                    Pursuant to provisions of the Deficit Reduction Act of 2005 (DRA), the
                    Centers for Medicare & Medicaid Services (CMS) was required to make
                    AMP data available to States as of July 1, 2006. States will have the
                    option of using these AMP data to set drug reimbursement amounts in
                    their Medicaid programs. As of January 1, 2007, AMPs are also to be
                    used to establish Medicaid Federal upper limit amounts. In response to
                    these changes, industry representatives have expressed concerns that
                    (1) the AMP is too volatile to serve as the basis for Medicaid payment,
                    and (2) the 2-month lag between when AMPs are reported to the States
                    and when reimbursement amounts are established may cause
                    pharmacies to absorb price increases in the interim.

                    At the time of this review, Federal law defined the AMP as the average
                    price paid to the manufacturer for a drug in the United States by
                    wholesalers for drugs distributed to the retail pharmacy class of trade
                    after deducting customary prompt pay discounts. As a result of
                    provisions in the DRA, beginning January 1, 2007, manufacturers are
                    no longer to include customary prompt pay discounts when reporting
                    AMPs. Through 2006, manufacturers reported AMPs for their covered
                    outpatient drugs to CMS by the national drug codes (NDC) each
                    quarter. However, effective January 1, 2007, the DRA requires
                    manufacturers to report AMPs to CMS on both a monthly and a
                    quarterly basis. Because the monthly AMP data submitted to CMS by
                    manufacturers will reflect sales from up to 60 days prior, there will be
                    at least a 2-month lag between the sales period for which AMPs are
                    reported and the effective date of the Medicaid reimbursement amounts.

                    For this inspection, we calculated the percentage difference among all
                    quarterly AMPs between the second quarter of 2005 and the second
                    quarter of 2006. These results were then broken down by drug category
                    (single-source, innovator multiple-source, or noninnovator multiple-
                    source) and for the top 50 NDCs ranked by total Medicaid
                    reimbursement within each category. In general, single-source drugs
                    are brand name products for which there are no available generics,

OEI-03-06-00350     E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S       i
    E X E C U T I V E                   S U           M M A R Y


                  innovator multiple-source drugs are brand name products for which
                  there are available generics, and noninnovator multiple-source drugs
                  are generic products. Manufacturers provide CMS with the drug type
                  for each of their NDCs in conjunction with AMP data.


                  FINDINGS
                  Overall, 39 percent of average manufacturer prices stayed the same
                  between quarters, and an additional 16 percent changed by less than
                  2 percent. During the period under review, an average of 39 percent of
                  AMPs did not change between quarters, and another 16 percent of
                  AMPs changed by less than 2 percent. Twenty-four percent of AMPs
                  fluctuated by more than 10 percent from quarter to quarter. Of this
                  number, half increased and half decreased.

                  Average manufacturer prices for single-source drugs changed more
                  frequently than those for other drug types, but most changes were
                  relatively small. An average of 78 percent of AMPs for single-source
                  NDCs changed from quarter to quarter during the period under review.
                  However, of those that changed, slightly more than half fluctuated by
                  2 percent or less. Only 7 percent of single-source NDCs, on average,
                  had AMPs that changed by more than 10 percent between quarters.

                  In comparison, the AMPs for 67 percent of innovator multiple-source
                  and 58 percent of noninnovator multiple-source NDCs changed between
                  quarters. However, the size of these changes tended to be larger than
                  the changes for single-source NDCs.

                  Average manufacturer prices for high-expenditure drugs changed
                  more frequently than those for other drugs, with single-source drugs
                  being especially prone to price increases. AMPs for the top 50 NDCs
                  by total Medicaid reimbursement in each category (single-source,
                  innovator multiple-source, and noninnovator multiple-source)
                  experienced more fluctuation between quarters than all AMPs as a
                  whole. On average, AMPs for 3 percent to 5 percent of the top 50 NDCs
                  in each category stayed the same from quarter to quarter, compared to
                  22 percent to 42 percent among all NDCs in each category.

                  AMPs for the top 50 noninnovator multiple-source NDCs showed the
                  most variability, with more than half changing by at least 10 percent
                  between quarters. At the same time, virtually all (99 percent) of the top
                  50 single-source NDCs changed by less than 10 percent between
                  quarters. AMPs for the top 50 innovator multiple-source NDCs changed


OEI-03-06-00350   E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S   ii
    E X E C U T I V E                   S U           M M A R Y


                  at rates that fell between noninnovator multiple-source and single-
                  source NDCs.

                  Overall, 42 percent of AMPs for the top 50 noninnovator multiple-source
                  NDCs increased and 54 percent decreased between each quarter during
                  the period under review. In contrast, AMPs associated with the top
                  50 single-source NDCs increased more than they decreased. An average
                  of 79 percent of AMPs for the top 50 single-source NDCs increased
                  between each quarter, with 41 percent increasing by at least 2 percent.


                  CONCLUSION
                  In this review, we found that the majority of AMPs did not fluctuate
                  substantially from quarter to quarter and that roughly equal numbers
                  of AMPs decreased as increased. However, when compared to AMPs for
                  other drug types, AMPs for single-source drugs, especially those with
                  high Medicaid expenditures, were more prone to increases between
                  quarters. Although these increases tended to be relatively small, States
                  may want to take the potential effects of AMP increases during the lag
                  period into account when developing any AMP-based reimbursement
                  formulas.

                  It is important to note that this analysis focused on quarterly AMP
                  data, because CMS had yet to begin collecting AMPs on a monthly basis
                  at the time of our review. Once AMP data are reported on a monthly
                  basis, we expect the size and the number of fluctuations between
                  reporting periods to be reduced.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS believes this report shows that AMPs can be used appropriately to
                  set Medicaid payment to pharmacies. However, CMS notes that the
                  new definition of AMP (as established by the DRA) excludes customary
                  prompt pay discounts and includes sales of authorized generics.
                  Therefore, CMS states that the Office of Inspector General’s (OIG)
                  findings may not be comparable to actual experience once the final
                  regulation implementing these changes is issued and the new AMP
                  definition takes effect.

                  CMS also notes that more than half of AMPs for noninnovator multiple-
                  source drugs varied by 10 percent or more. Although this is a high
                  percentage change, noninnovator multiple-source drugs are usually


OEI-03-06-00350   E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S   iii
    E X E C U T I V E                   S U           M M A R Y 





                  priced far lower than the other categories of drugs, making the absolute
                  change modest. In future work, CMS would like OIG to add an
                  additional analysis of absolute price changes in this area of work.

                  OIG agrees that AMPs will likely change as a result of CMS’s final rule
                  implementing the DRA-related definitional changes. However, the
                  analysis presented in this report can serve as the baseline for future
                  studies that address how DRA provisions impact AMP. Finally, OIG
                  will consider including analyses of absolute price changes in future
                  work in this area.




OEI-03-06-00350   E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S   iv
  Δ         T A B L E                         O F                  C O N T E N T S                                                 




                  EXECUTIVE SUMMARY ..................................... i




                  INTRODUCTION ........................................... 1




                  FINDINGS               ............................................. .. 7

                            Each quarter, 39 percent of AMPs did not change . . . . . . . . . . . . . 7 


                            AMPs for single-source drugs had more fluctuation . . . . . . . . . . . . 8 


                            AMPs for high-expenditure drugs had more fluctuation. . . . . . . . . 9 



                  C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                            Agency Comments and Office of Inspector General Response . . . 11




                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                            A. 	Quarterly, Yearly, and Average Percent Changes in AMPs 


                                  for All NDCs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                            B. 	Quarterly Percent Changes in AMPs by Drug Category . . . . . 14 


                            C. 	Quarterly Percent Changes in AMPs for Top 50 NDCs by 


                                  by Drug Category . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 


                            D. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 




                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 





OEI-03-06-00350                    E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S       v
Δ   I N T R O D U C T I O N                                                     



                  OBJECTIVE
                  To determine the extent to which average manufacturer prices (AMP)
                  fluctuated between the second quarter of 2005 and the second quarter of
                  2006.


                  BACKGROUND
                  Pursuant to provisions of the Deficit Reduction Act of 2005 (DRA),
                  Public Law 109-171, the Centers for Medicare & Medicaid Services
                  (CMS) was required to make AMP data available to States as of
                  July 1, 2006.1 States will have the option of using these AMP data to
                  set drug reimbursement amounts in their Medicaid programs. In
                  response to these changes, industry representatives have expressed
                  concerns that (1) the AMP is too volatile to serve as the basis for
                  Medicaid’s payment methodology, and (2) the 2-month lag between
                  when AMPs are reported to the States and when reimbursement
                  amounts are established may cause pharmacies to absorb price
                  increases in the interim (particularly increases in prices for brand name
                  drugs).2 This study assesses these concerns by examining historical
                  changes in AMPs over time.
                  Medicaid Coverage of Prescription Drugs
                  All 50 States and the District of Columbia offer prescription drug
                  coverage as part of their Medicaid programs. Individual States
                  establish eligibility requirements, benefits packages, and payment rates
                  under broad Federal standards administered by CMS. In 2005,
                  Medicaid payments for prescription drugs totaled over $41 billion.3
                  Medicaid Drug Reimbursement Methodology
                  Typically, Medicaid beneficiaries obtain drugs through pharmacies. To
                  receive reimbursement for these drugs, pharmacies submit claims to
                  State Medicaid agencies using the national drug codes (NDC), which are
                  11-digit identifiers indicating the manufacturer of the drug, the product
                  dosage form, and the package size.


                  1 Deficit Reduction Act of 2005, section 6001(b).
                  2 “Medicaid Prescription Drugs: Examining Options for Payment Reform.” National
                   Association of Chain Drug Stores’ statement to the House Energy and Commerce
                   Committee, Subcommittee on Health, June 22, 2005, page 10.
                  3 This amount includes both the Federal and State shares of payments. Rebates collected

                   under the Medicaid Drug Rebate program (section 1927 of the Social Security Act) were
                   not subtracted from this figure.


OEI-03-06-00350   E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S   1
I N T R O D        U C T            I O N


                    Pursuant to section 1902(a)(54) of the Social Security Act (the Act), each
                    State is required to submit a Medicaid State plan to CMS describing its
                    payment methodology for covered outpatient drugs. Federal regulations
                    require, with certain exceptions, that each State’s Medicaid
                    reimbursement for a drug not exceed (in the aggregate) the lower of its
                    estimated acquisition cost plus a reasonable dispensing fee or the
                    provider’s usual and customary charge to the public.4 CMS allows
                    States flexibility when defining estimated acquisition cost. Currently,
                    most States base their calculations of estimated acquisition cost on a
                    drug’s average wholesale price discounted by a certain percentage. For
                    certain multiple-source drugs, States also use the Federal upper limit
                    and/or State maximum allowable cost programs in determining
                    reimbursement amounts.5
                    Average Manufacturer Prices Prior to January 1, 2007
                    For Federal payments to be available for covered outpatient drugs
                    provided under Medicaid, sections 1927(a)(1) and (b)(1) of the Act
                    require drug manufacturers to enter into rebate agreements with the
                    Secretary of the Department of Health and Human Services (the
                    Secretary) and pay quarterly rebates to State Medicaid agencies. Under
                    these rebate agreements, and pursuant to section 1927(b)(3) of the Act,
                    manufacturers must provide CMS with the AMP for each of their
                    covered outpatient drugs by the NDC. At the time of this review, the
                    AMP was defined by section 1927(k)(1) of the Act as the average price
                    paid to the manufacturer for the drug in the United States by
                    wholesalers for drugs distributed to the retail pharmacy class of trade
                    after deducting customary prompt pay discounts.6
                    The AMP is calculated as a weighted average of prices for all the
                    manufacturer’s package sizes of a covered outpatient drug sold during a
                    given time period and is reported for the lowest identifiable quantity of
                    the drug (e.g., 1 milligram, 1 milliliter, 1 tablet, or 1 capsule). Through
                    2006, manufacturers submitted AMP data on a quarterly basis, with
                    submissions due 30 days after the close of the quarter.



                    4 42 CFR § 447.331(b).
                    5 The Federal upper limit and State maximum allowable cost programs serve to control
                     spending for multiple-source drugs. CMS has currently established Federal upper limit
                     amounts for more than 500 drugs. In addition, numerous States have implemented
                     maximum allowable cost programs to limit reimbursement amounts for certain drugs.
                    6 Pursuant to section 6001(c)(1) of the DRA, as of January 1, 2007, the AMP will be
                     determined without regard to customary prompt pay discounts extended to wholesalers.


 OEI-03-06-00350    E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S   2
I N T R O D        U C T            I O N


                    For purposes of the Medicaid drug rebate program, drugs are classified
                    as one of three types: single-source, innovator multiple-source, or
                    noninnovator multiple-source. Pursuant to section 1927(k)(7)(A) of the
                    Act, these three categories are defined as follows:

                          •	       Single-source drug: a covered outpatient drug produced or
                                   distributed under an original new drug application approved by
                                   the Food and Drug Administration (FDA), including a drug
                                   product marketed by any cross-licensed producers or distributors
                                   operating under the new drug application.

                          •	       Innovator multiple-source drug: a multiple-source drug that was
                                   originally marketed under an original new drug application
                                   approved by the FDA.

                          •	       Noninnovator multiple-source drug: a multiple-source drug that
                                   is not an innovator multiple-source drug.

                    In general, single-source drugs are brand name products for which there
                    are no available generics, innovator multiple-source drugs are brand
                    name products for which there are available generics, and noninnovator
                    multiple-source drugs are generic products. Manufacturers provide
                    CMS with the drug type for each of their NDCs in conjunction with
                    AMP data.
                    Medicaid Prescription Drug Reform
                    In an effort to reduce Medicaid prescription drug expenditures,
                    Congress recently enacted changes that affect payments for Medicaid
                    prescription drugs. Prior to the enactment of the DRA, section
                    1927(b)(3)(D) of the Act prohibited the disclosure of AMP data, except in
                    certain narrow circumstances. During that time, AMP data were used
                    primarily by CMS for purposes of the Medicaid drug rebate program.
                    However, section 6001(b)(1)(B) of the DRA requires that AMPs be made
                    available to State Medicaid programs beginning July 1, 2006. States
                    will have the option to use these AMP data to help set reimbursement
                    rates. In addition, as of January 1, 2007, pursuant to section 6001(a) of
                    the DRA, Federal upper limit amounts for certain multiple-souce drugs
                    are to be based on 250 percent of the lowest reported AMP for each drug
                    rather than 150 percent of the lowest price published in national
                    compendia.

                    Section 6001(b)(1)(A) of the DRA requires manufacturers, beginning
                    January 1, 2007, to report AMPs to CMS on both a monthly and a
                    quarterly basis, with monthly submissions due 30 days after the close of


 OEI-03-06-00350    E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S   3
I N T R O D        U C T            I O N


                    the month. Because the monthly AMP data submitted to CMS by the
                    manufacturers will reflect sales from up to 60 days prior, there would be
                    at least a 2-month lag between the sales period for which AMPs are
                    reported and the effective date of the Medicaid reimbursement amounts.
                    In addition, pursuant to section 6001(c)(1) of the DRA, as of
                    January 1, 2007, the AMP will be determined without regard to
                    customary prompt pay discounts extended to wholesalers, and such
                    discounts will be reported separately to CMS. In December 2006, CMS
                    issued a proposed regulation addressing the new AMP provisions of the
                    DRA.
                    Additional Office of Inpector General Work Regarding Average
                    Manufacturer Prices
                    The Office of Inspector General (OIG) is currently in the process of
                    completing two companion reports addressing DRA-related AMP
                    provisions. “States’ Use of New Drug Pricing Data in the Medicaid
                    Program” (OEI-03-06-00490) examines the manner in which States are
                    planning to use the newly available AMP data. “Deficit Reduction Act
                    of 2005: Impact on the Medicaid Federal Upper Limit Program” (OEI
                    03-06-00400) assesses the potential changes in Federal upper limit
                    amounts under the new AMP-based calculation method.

                    In a June 2006 study, “Determining Average Manufacturer Prices for
                    Prescription Drugs Under the Deficit Reduction Act of 2005”
                    (A-06-06-00063), we found that existing requirements for determining
                    certain aspects of AMPs are not clear and comprehensive, and
                    manufacturers’ methods of calculating AMPs are inconsistent. Our
                    discussions with industry groups confirmed the need to clarify
                    requirements and raised additional issues related to the
                    implementation of DRA provisions. We recommended that the
                    Secretary direct CMS, in promulgating the AMP regulation, to:
                    (1) clarify requirements in regard to the definition of retail class of trade
                    and the treatment of pharmacy benefit manager rebates and Medicaid
                    sales and (2) consider addressing issues raised by industry groups. We
                    also recommended that the Secretary direct CMS to: (1) issue guidance
                    in the near future that specifically addresses the implementation of the
                    AMP-related reimbursement provisions of the DRA and (2) encourage
                    States to analyze the relationship between the AMP and pharmacy
                    acquisition cost before using the AMP for their reimbursement
                    methodology.




 OEI-03-06-00350    E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S   4
I N T R O D        U C T            I O N


                    In our June 2005 report, “Comparison of Medicaid Federal Upper Limit
                    Amounts to Average Manufacturer Prices” (OEI-03-05-00110), we found
                    that Federal upper limit amounts were five times higher than average
                    AMPs (a figure that we used as an estimate of pharmacy acquisition
                    costs) in the third quarter of 2004. At that time, we recommended that
                    CMS work with Congress to set Federal upper limit amounts that more
                    closely resemble pharmacy acquisition costs.


                    METHODOLOGY
                    Data Sources and Scope
                    We obtained AMP data for the second quarter of calendar year 2005
                    through the second quarter of calendar year 2006 from CMS. Drug
                    category data (single-source, innovator multiple-source, or noninnovator
                    multiple-source) were included on the AMP files provided by CMS. A
                    total of 51,936 unique NDCs (5,403 single-source, 4,697 innovator
                    multiple-source, and 41,836 noninnovator multiple-source) had an AMP
                    value in at least one of the quarters under review.
                    Data Analysis
                    For each NDC, we calculated the percentage difference between
                    quarterly AMP values and for the 1-year span between the first and last
                    quarters. NDCs that did not have AMP values for any particular
                    quarter were excluded from the percentage difference calculations
                    involving that quarter.7
                    We grouped NDCs into ranges according to the percentage that the
                    AMP had increased or decreased for a given time period. To determine
                    the average amount that AMPs fluctuated on a quarterly basis, we
                    calculated the average percentage of NDCs that fell into each range over
                    the four-quarter period. Frequency counts of AMP fluctuations based
                    on drug categories were also performed.

                    Using 2005 Medicaid drug utilization data downloaded from CMS’s
                    Web site, we identified the top 50 NDCs by total Medicaid
                    reimbursement for each of the three categories. We then examined
                    AMP fluctuations for the top 50 NDCs among each of the three drug




                    7 The number of NDCs included in each quarterly percentage difference calculation ranged
                     from 38,123 to 45,937.


 OEI-03-06-00350    E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S   5
I N T R O D        U C T            I O N


                    categories.8 We repeated the analysis described above to determine
                    variation in AMPs for the top 50 NDCs as compared to NDCs for all
                    drugs in each category.
                    Limitations
                    AMPs used in this study reflect the customary prompt pay discounts
                    paid by manufacturers, because this is how AMPs were reported at
                    the time of our analysis. As a result of provisions in the DRA,
                    beginning January 1, 2007, manufacturers are no longer to include
                    customary prompt pay discounts when reporting AMPs.
                    Furthermore, as of that same date, manufacturers are required to
                    report AMPs to CMS on both a monthly and a quarterly basis.

                    Standards
                    This study was conducted in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council of Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




                    8 Not all 50 NDCs within each category had AMP values for each quarter under review. As
                     a result, one single-source NDC was removed in the analysis of fluctuations between the
                     first and second quarters of 2006. In addition, one innovator multiple-source NDC and
                     one noninnovator multiple-source NDC were removed in the analysis of fluctuations
                     between the second and third quarters of 2005.


 OEI-03-06-00350    E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S   6
F I N F D I I NN DG I S N
Δ                                                     G S 



   Overall, 39 percent of average manufacturer                       During the period under review,
                                                                     an average of 39 percent of AMPs
    prices stayed the same between quarters,
                                                                     did not change between quarters,
     and an additional 16 percent changed by
                                                                     and an additional 16 percent of
                            less than 2 percent                      AMPs changed by less than
                               2 percent. Twenty-four percent of AMPs fluctuated by more than
                               10 percent, on average, from quarter to quarter. Of this number, half
                               increased and half decreased.
                               Graph 1 presents the average percentage change in AMPs between
                               quarters from the second quarter of 2005 through the second quarter of
                               2006. The AMP fluctuations from quarter to quarter varied only
                               slightly from the overall averages displayed in the graph. Fluctuations
                               between each of the quarters under review, as well as the entire year as
                               a whole, are presented in Appendix A.



                      Graph 1: Average Percent Change in AMPs Between Quarters


                                                                                                                               39.2
                                                40
                        Percentage of AMPs




                                                30



                                                20
                                                                                                                                                   12.4
                                                                                                         8.4                                 8.8
                                                10                                                                   7.4
                                                                                             5.6                                                          5.6
                                                                                  3.5                                                                           2.8         2.7
                                                          1.0         1.5                                                                                             1.2
                                                  0
                                                              2%




                                                               %


                                                               %


                                                               %
                                                               %
                                                             0%
                                                             5%


                                                             0%


                                                             5%




                                                               %

                                                              ge




                                                               %
                                                             5%




                                                            25


                                                            50


                                                            75
                                                           10
                                                            -2




                                                           75
                                                           an
                                                          -1
                                                          -7


                                                          -5


                                                          -2
                                                          -7




                                                          to
                                                        to




                                                        to


                                                        to


                                                        to
                                                       ch




                                                       to




                                                       er
                                                      to
                                                      to


                                                      to


                                                      to
                                                      er




                                                     01
                                                     1




                                                    ov
                                                     1


                                                     1


                                                     1
                                                   01
                                                  no
                                                  ov




                                                    1

                                                   .0
                                                  01


                                                  01


                                                  01




                                                  0.




                                                  .0


                                                  .0


                                                  .0
                                                 .0




                                                2.
                                                -0




                                               10


                                               25


                                               50
                                               0.


                                               5.


                                               0.

                                              -2
                                             -5


                                             -2


                                             -1




                                                                                                        Average Percent Change

                      Source: OIG analysis of second-quarter 2005 through second-quarter 2006 AMP data, October 2006.
                      *Totals do not add up to 100% due to rounding.




    OEI-03-06-00350                          E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S                                  7
F   I N D I N G       S 




Average manufacturer prices for single-source             AMPs for single-source NDCs
                                                          tended to change more frequently
drugs changed more frequently than those for
                                                          than did AMPs for multiple-source
     other drug types, but most changes were
                                                          NDCs. During the period under
                              relatively small            review, an average of 78 percent of
                      AMPs for single-source NDCs changed from quarter to quarter. In
                      comparison, AMPs for 67 percent of innovator multiple-source and
                      58 percent of noninnovator multiple-source NDCs changed in the same
                      timeframe.

                      Although fewer AMPs for innovator and noninnovator multiple-source
                      NDCs changed from quarter to quarter, any percentage changes tended
                      to be larger than those for single-source drugs. An average of
                      16 percent of AMPs for innovator multiple-source drugs and 27 percent
                      of AMPs for noninnovator multiple-source drugs increased or decreased
                      by at least 10 percent between quarters. Among single-source drugs,
                      the majority fluctuated by 2 percent or less. Only 7 percent of
                      single-source NDCs had AMPs that changed by more than 10 percent
                      between quarters.

                      Table 1 on the following page illustrates the average fluctuation
                      between quarters for single-source, innovator multiple-source, and
                      noninnovator multiple-source NDCs. Tables that track the AMP
                      changes for NDCs in each category between each of the quarters under
                      review are presented in Appendix B.




    OEI-03-06-00350   E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S   8
F    I N D I N G            S


Table 1: Average Percent Change in AMPs Between Quarters by Category

                                                                       Innovator                             Noninnovator
    Range of                    Single-Source                        Multiple-Source                        Multiple-Source
    Fluctuation                     NDCs                                  NDCs                                   NDCs             All Categories
    Over 75%                             0.5%                                    1.5%                                      3.2%       2.7%
    50.01 to 75%                         0.3%                                    0.8%                                      1.4%       1.2%
    25.01 to 50%                         0.7%                                    2.0%                                      3.2%       2.8%
    10.01 to 25%                         3.4%                                    4.5%                                      6.0%       5.6%
    2.01 to 10%                         24.9%                                  18.4%                                   10.0%          12.4%
    0.01 to 2 %                         23.1%                                  13.3%                                       6.3%       8.8%
    No Change                           22.4%                                  32.9%                                   42.1%          39.2%
    -0.01 to -2%                        16.1%                                  11.1%                                       5.8%       7.4%
    -2.01 to -10%                        6.1%                                    7.9%                                      8.8%       8.4%
    -10.01 to -25%                       1.5%                                    3.9%                                      6.4%       5.6%
    -25.01 to -50%                       0.6%                                    2.3%                                      4.0%       3.5%
    -50.01 to -75%                       0.2%                                    0.8%                                      1.8%       1.5%
    Over -75%                            0.1%                                    0.6%                                      1.2%       1.0%
Source: OIG analysis of second-quarter 2005 through second-quarter 2006 AMP data, October 2006.
*Totals do not add up to 100% due to rounding.



          Average manufacturer prices for high-                   AMPs for the top 50 NDCs by
                                                                  total Medicaid reimbursement
    expenditure drugs changed more frequently
                                                                  in each category (single-source,
  than those for other drugs, with single-source
                                                                  innovator multiple-source, and
 drugs being especially prone to price increases                  noninnovator multiple-source)
                                                                  experienced more fluctuation
                          between quarters than all AMPs as a whole. On average, AMPs for
                          3 percent to 5 percent of the top 50 NDCs in each category stayed the
                          same from quarter to quarter, as compared to 22 percent to 42 percent
                          among all NDCs in each category.

                          AMPs for the top 50 noninnovator multiple-source NDCs showed the
                          most variability, with more than half changing by at least 10 percent
                          between quarters. In contrast, virtually all (99 percent) of the top
                          50 single-source NDCs changed by less than 10 percent between
                          quarters. AMPs for the top 50 innovator multiple-source NDCs changed
                          at rates that fell between those for noninnovator multiple-source and
                          single-source NDCs.

                          Overall, 42 percent of AMPs for the top 50 noninnovator multiple-source
                          NDCs increased and 54 percent decreased between each quarter during


     OEI-03-06-00350       E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S                       9
F    I N D I N G           S


                          the period under review. In contrast, AMPs associated with the top
                          50 single-source NDCs increased more than they decreased. An average
                          of 79 percent of AMPs for the top 50 single-source NDCs increased
                          between each quarter, with 41 percent increasing by at least 2 percent.

                          Table 2 below shows the average quarterly fluctuations among the top
                          50 NDCs in each category. Tables that track AMP changes for the top
                          50 single-source, innovator multiple-source, and noninnovator
                          multiple-source NDCs between each of the quarters under review are
                          presented in Appendix C.



Table 2: Average Percent Change in AMPs Between Quarters for Top 50 NDCs by Category


    Range of                                                                       Innovator Multiple-                    Noninnovator Multiple-
    Fluctuation                Single-Source NDCs                                     Source NDCs                             Source NDCs
    Over 75%                                       -                                              3.5%                            5.5%
    50.01 to 75%                                   -                                              2.0%                            2.5%
    25.01 to 50%                                   -                                              3.5%                            5.5%
    10.01 to 25%                              0.5%                                                4.5%                            8.0%
    2.01 to 10%                              40.2%                                               25.1%                            15.5%
    0.01 to 2 %                              38.2%                                               27.7%                            4.6%
    No Change                                 2.5%                                                4.0%                            4.5%
    -0.01 to -2%                             16.1%                                               13.0%                            11.1%
    -2.01 to -10%                             2.5%                                                6.1%                            11.1%
    -10.01 to -25%                                 -                                              3.0%                            13.6%
    -25.01 to -50%                                 -                                              2.0%                            10.6%
    -50.01 to -75%                                 -                                              2.0%                            5.0%
    Over -75%                                      -                                              3.5%                            2.5%
Source: OIG analysis of second-quarter 2005 through second-quarter 2006 AMP data, October 2006.
*Totals do not add up to 100% due to rounding.




     OEI-03-06-00350      E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S                      10
Δ    C O N C L U S I O N                                           




                  CONCLUSION
                  Pursuant to provisions of the DRA, CMS was required to make AMP
                  data available to States as of July 1, 2006. States will have the option
                  of using these AMP data to set drug reimbursement amounts in their
                  Medicaid programs. In response to these changes, industry
                  representatives have expressed concerns that (1) the AMP is too volatile
                  to serve as the basis for Medicaid’s payment methodology, and (2) the
                  2-month lag between when AMPs are reported to the States and when
                  reimbursement amounts are established may cause pharmacies to
                  absorb price increases in the interim.
                  In this review, we found that the majority of AMPs did not fluctuate
                  substantially from quarter to quarter and that roughly equal numbers
                  of AMPs decreased as increased. However, when compared to AMPs for
                  other drug types, AMPs for single-source drugs, especially those with
                  high Medicaid expenditures, were more prone to increases between
                  quarters. Although these increases tended to be relatively small, States
                  may want to take the potential effects of AMP increases during the lag
                  period into account when developing any AMP-based reimbursement
                  formulas.

                  Finally, it is important to note that this analysis focused on quarterly
                  AMP data, because CMS had yet to begin collecting AMPs on a monthly
                  basis at the time of our review. Once AMP data are reported on a
                  monthly basis, we expect the size and the number of fluctuations
                  between reporting periods to be reduced.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS notes that the findings of this report are based on AMPs prior to
                  January 2007. Pursuant to provisions in the DRA, after this date, the
                  definition of AMP excludes customary prompt pay discounts and
                  includes sales of authorized generics. Therefore, CMS states that OIG’s
                  findings may not be comparable to actual experience once the final
                  regulation implementing these changes is issued and the new AMP
                  definition takes effect.

                  CMS also states that making AMP data available to States for
                  reimbursement purposes will be a great improvement over the current
                  situation, in which States base drug reimbursement on published prices
                  in commercial compendia that have little relationship to market prices.


OEI-03-06-00350   E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S   11
C O   N C L        U S I O            N


                     Because AMP changes reflect market price changes and OIG’s findings
                     indicate that the variations occur equally in both directions, CMS
                     believes this report shows AMP’s can be used appropriately to establish
                     Medicaid payment to pharmacies.

                     CMS also notes that more than half of AMPs for noninnovator multiple-
                     source drugs varied by 10 percent or more. Although this is a high
                     percentage change, noninnovator multiple-source drugs are usually
                     priced far lower than the other categories of drugs, making the absolute
                     change modest. In future work, CMS would like OIG to add an
                     additional analysis of absolute price changes in this area of work. The
                     full text of CMS’s comments is presented in Appendix D.

                     OIG agrees that AMPs will likely change as a result of CMS’s final rule
                     implementing the DRA-related definitional changes. However, the
                     analysis presented in this report can serve as a baseline for future
                     studies that address how the DRA provisions impact AMP. Finally,
                     OIG will consider including analyses of absolute price changes in future
                     work in this area.




 OEI-03-06-00350      E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S   12
   Δ         A P P E N D I X ~ A



 Table A-1: Quarterly, Yearly, and Average Percent Changes in AMPs for All NDCs

                                                                                                                                                Total
                                                                                                                                 Average      Change
                           2nd Qtr 2005         3rd Qtr 2005                 4th Qtr 2005                 1st Qtr 2006           Change     2nd Qtr 2005
 Range of                       to                   to                           to                           to                Between         To
 Fluctuation               3rd Qtr 2005         4th Qtr 2005                 1st Qtr 2006                 2nd Qtr 2006           Quarters   2nd Qtr 2006
 Over 75%                     2.2%                     3.1%                        2.3%                         3.3%              2.7%         3.5%
 50.01 to 75%                 0.8%                     1.9%                        0.9%                         1.2%              1.2%         1.5%
 25.01 to 50%                 2.7%                     2.9%                        2.2%                         3.5%              2.8%         5.0%
 10.01 to 25%                 5.4%                     5.5%                        4.9%                         6.4%              5.6%        10.5%
 2.01 to 10%                 12.2%                   11.0%                        12.4%                        13.8%             12.4%        16.1%
 0.01 to 2 %                  9.6%                     8.7%                        7.3%                         9.5%              8.8%         5.5%
 No Change                   37.5%                   40.2%                        41.9%                        37.1%             39.2%        27.5%
 -0.01 to -2%                 7.4%                     8.3%                        6.6%                         7.1%              7.4%         4.9%
 -2.01 to -10%                9.3%                     8.5%                        8.0%                         7.9%              8.4%         8.0%
 -10.01 to -25%               6.5%                     4.8%                        6.5%                         4.8%              5.6%         7.6%
 -25.01 to -50%               3.9%                     2.8%                        4.1%                         3.3%              3.5%         5.7%
 -50.01 to -75%               1.6%                     1.3%                        1.8%                         1.5%              1.5%         2.7%
 Over -75%                    1.0%                     1.0%                        1.3%                         0.8%              1.0%         1.6%
Source: OIG analysis of second-quarter 2005 through second-quarter 2006 AMP data, October 2006.
*Totals do not add up to 100% due to rounding.




         OEI-03-06-00350         E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S                        13
      A    P   P E N D        I X ~            B
   Δ           A P P E N D I X ~ B



Table B-1: Quarterly Percent Changes in AMPs for Single-Source NDCs

                                                                                                                                        Average
                            2nd Qtr 2005                3rd Qtr 2005                    4th Qtr 2005                   1st Qtr 2006     Change
 Range of                        to                          to                              to                             to          Between
 Fluctuation                3rd Qtr 2005                4th Qtr 2005                    1st Qtr 2006                   2nd Qtr 2006     Quarters
 Over 75%                       0.4%                        0.7%                            0.6%                           0.5%          0.5%
 50.01 to 75%                   0.2%                           0.6%                            0.2%                             0.3%     0.3%
 25.01 to 50%                   0.8%                           0.6%                            0.5%                             0.7%     0.7%
 10.01 to 25%                   3.3%                           3.4%                            3.5%                             3.6%     3.4%
 2.01 to 10%                   21.3%                          17.3%                           34.9%                             26.0%    24.9%
 0.01 to 2 %                   26.7%                          24.9%                           16.2%                             24.8%    23.1%
 No Change                     21.5%                          23.4%                           22.2%                             22.6%    22.4%
 -0.01 to -2%                  15.7%                          19.9%                           13.6%                             15.4%    16.1%
 -2.01 to -10%                  7.0%                           7.7%                            5.7%                             4.3%     6.1%
 -10.01 to -25%                 2.0%                           1.1%                            1.7%                             1.2%     1.5%
 -25.01 to -50%                 0.9%                           0.3%                            0.5%                             0.6%     0.6%
 -50.01 to -75%                 0.1%                           0.1%                            0.2%                             0.1%     0.2%
 Over -75%                      0.2%                           0.1%                            0.1%                             0.1%     0.1%
Source: OIG analysis of second-quarter 2005 through second-quarter 2006 AMP data, October 2006.
*Totals do not add up to 100% due to rounding.




          OEI-03-06-00350       E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S                      14
A     P   P E N D       I X ~       B




Table B-2: Quarterly Percent Changes in AMPs for Innovator Multiple-Source NDCs

                                                                                                                                        Average
                            2nd Qtr 2005                3rd Qtr 2005                    4th Qtr 2005                   1st Qtr 2006     Change
    Range of                     to                          to                              to                             to          Between
    Fluctuation             3rd Qtr 2005                4th Qtr 2005                    1st Qtr 2006                   2nd Qtr 2006     Quarters
    Over 75%                    1.5%                        2.1%                            0.8%                           1.5%          1.5%
    50.01 to 75%                0.5%                           1.1%                            0.8%                             0.9%     0.8%
    25.01 to 50%                1.6%                           2.2%                            1.9%                             2.4%     2.0%
    10.01 to 25%                4.0%                           4.9%                            4.7%                             4.3%     4.5%
    2.01 to 10%                19.2%                          13.1%                           21.9%                             19.6%    18.4%
    0.01 to 2 %                15.3%                          11.7%                           10.3%                             16.0%    13.3%
    No Change                  31.0%                          33.5%                           35.1%                             31.9%    32.9%
    -0.01 to -2%                9.8%                          15.8%                           10.4%                             8.4%     11.1%
    -2.01 to -10%               7.8%                           9.0%                            6.0%                             8.6%     7.9%
    -10.01 to -25%              5.1%                           3.9%                            3.9%                             2.9%     3.9%
    -25.01 to -50%              2.6%                           1.9%                            2.6%                             2.0%     2.3%
    -50.01 to -75%              0.7%                           0.4%                            0.9%                             0.9%     0.8%
    Over -75%                   0.9%                           0.4%                            0.7%                             0.4%     0.6%
Source: OIG analysis of second-quarter 2005 through second-quarter 2006 AMP data, October 2006.
*Totals do not add up to 100% due to rounding.




          OEI-03-06-00350       E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S                      15
      A    P   P E N D        I X ~            B




Table B-3: Quarterly Percent Changes in AMPs for Noninnovator Multiple-Source NDCs

                                                                                                                                        Average
                            2nd Qtr 2005                3rd Qtr 2005                    4th Qtr 2005                   1st Qtr 2006     Change
 Range of                        to                           to                             to                             to          Between
 Fluctuation                3rd Qtr 2005                4th Qtr 2005                    1st Qtr 2006                   2nd Qtr 2006     Quarters
 Over 75%                       2.5%                        3.49%                           2.8%                           3.9%          3.2%
 50.01 to 75%                   1.0%                           2.2%                            1.0%                             1.3%     1.4%
 25.01 to 50%                   3.0%                           3.3%                            2.4%                             4.0%     3.2%
 10.01 to 25%                   5.8%                           5.8%                            5.1%                             7.1%     6.0%
 2.01 to 10%                   10.3%                           9.9%                            8.3%                             11.5%    10.0%
 0.01 to 2 %                    6.7%                           6.2%                            5.7%                             6.6%     6.3%
 No Change                     40.4%                          43.2%                           45.3%                             39.6%    42.1%
 -0.01 to -2%                   6.1%                           6.0%                            5.2%                             5.8%     5.8%
 -2.01 to -10%                  9.8%                           8.5%                            8.5%                             8.3%     8.8%
 -10.01 to -25%                 7.2%                           5.4%                            7.4%                             5.5%     6.4%
 -25.01 to -50%                 4.4%                           3.3%                            4.7%                             3.8%     4.0%
 -50.01 to -75%                 1.9%                           1.5%                            2.1%                             1.7%     1.8%
 Over -75%                      1.1%                           1.2%                            1.5%                             0.9%     1.2%
Source: OIG analysis of second-quarter 2005 through second-quarter 2006 AMP data, October 2006.
*Totals do not add up to 100% due to rounding.




          OEI-03-06-00350       E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S                      16
  Δ         A P P E N D I X ~ C



Table C-1: Quarterly Percent Changes in AMPs for Top 50 Single-Source NDCs

                                                                                                                                        Average
                           2nd Qtr 2005                3rd Qtr 2005                     4th Qtr 2005                    1st Qtr 2006    Change
 Range of                       to                          to                               to                              to         Between
 Fluctuation               3rd Qtr 2005                4th Qtr 2005                     1st Qtr 2006                   2nd Qtr 2006*    Quarters
 Over 75%                        -                           -                                -                               -            -
 50.01 to 75%                    -                                 -                               -                              -        -
 25.01 to 50%                    -                                 -                               -                              -        -
 10.01 to 25%                    -                                 -                           2.0%                               -      0.5%
 2.01 to 10%                  40.0%                          22.0%                            54.0%                             44.9%    40.2%
 0.01 to 2 %                  44.0%                          32.0%                            34.0%                             42.9%    38.2%
 No Change                       -                            4.0%                             4.0%                             2.0%     2.5%
 -0.01 to -2%                  8.0%                          40.0%                             6.0%                             10.2%    16.1%
 -2.01 to -10%                 8.0%                           2.0%                                 -                              -      2.5%
 -10.01 to -25%                  -                                 -                               -                              -        -
 -25.01 to -50%                  -                                 -                               -                              -        -
 -50.01 to -75%                  -                                 -                               -                              -        -
 Over -75%                       -                                 -                               -                              -        -
Source: OIG analysis of second-quarter 2005 through second-quarter 2006 AMP data, October 2006. 

*There were 49 single-source NDCs between the first and second quarters of 2006. 

*Totals do not add up to 100% due to rounding. 





         OEI-03-06-00350        E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S                      17
      A P P E N D              I X             ~           C


  Table C-2: Quarterly Percent Changes in AMPs for Top 50 Innovator Multiple-Source NDCs

                                                                                                                                         Average
                            2nd Qtr 2005                 3rd Qtr 2005                    4th Qtr 2005                   1st Qtr 2006     Change
  Range of                        to                          to                              to                              to         Between
  Fluctuation               3rd Qtr 2005*                4th Qtr 2005                    1st Qtr 2006                   2nd Qtr 2006     Quarters
  Over 75%                         -                         4.0%                              -                            10.0%         3.5%
  50.01 to 75%                       -                          2.0%                            4.0%                             2.0%     2.0%
  25.01 to 50%                   2.0%                           6.0%                            2.0%                             4.0%     3.5%
  10.01 to 25%                   4.1%                           4.0%                            6.0%                             4.0%     4.5%
  2.01 to 10%                   24.5%                          18.0%                           42.0%                             16.0%    25.1%
  0.01 to 2 %                   30.6%                          26.0%                           18.0%                             36.0%    27.7%
  No Change                      6.1%                           4.0%                            4.0%                             2.0%     4.0%
  -0.01 to -2%                   8.2%                          28.0%                            4.0%                             12.0%    13.0%
  -2.01 to -10%                 14.3%                           4.0%                                -                            6.0%     6.1%
  -10.01 to -25%                 2.0%                                -                          8.0%                             2.0%     3.0%
  -25.01 to -50%                 4.1%                                -                          2.0%                             2.0%     2.0%
  -50.01 to -75%                     -                          4.0%                            2.0%                             2.0%     2.0%
  Over -75%                      4.1%                                -                          8.0%                             2.0%     3.5%
 Source: OIG analysis of second-quarter 2005 through second-quarter 2006 AMP data, October 2006.
 *There were 49 innovator multiple-source NDCs between the second and third quarters of 2005.
*Totals do not add up to 100% due to rounding.




          OEI-03-06-00350        E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S                      18
      A    P   P E N D         I X             ~           C


Table C-3: Quarterly Percent Changes in AMPs for Top 50 Noninnovator Multiple-Source
NDCs

                                                                                                                                         Average
                            2nd Qtr 2005                 3rd Qtr 2005                    4th Qtr 2005                   1st Qtr 2006     Change
  Range of                        to                          to                              to                             to          Between
  Fluctuation               3rd Qtr 2005*                4th Qtr 2005                    1st Qtr 2006                   2nd Qtr 2006     Quarters
  Over 75%                      6.1%                         2.0%                            8.0%                           6.0%          5.5%
  50.01 to 75%                   2.0%                           2.0%                            4.0%                             2.0%     2.5%
  25.01 to 50%                   4.1%                                -                          6.0%                             12.0%    5.5%
  10.01 to 25%                   6.1%                           6.0%                            8.0%                             12.0%    8.0%
  2.01 to 10%                    8.2%                          22.0%                           16.0%                             16.0%    15.5%
  0.01 to 2 %                   10.2%                           4.0%                            2.0%                             2.0%     4.6%
  No Change                          -                          6.0%                            2.0%                             10.0%    4.5%
  -0.01 to -2%                  12.2%                           8.0%                           10.0%                             14.0%    11.1%
  -2.01 to -10%                 16.3%                          16.0%                           10.0%                             2.0%     11.1%
  -10.01 to -25%                14.3%                          12.0%                           16.0%                             12.0%    13.6%
  -25.01 to -50%                18.4%                           8.0%                            8.0%                             8.0%     10.6%
  -50.01 to -75%                 2.0%                          10.0%                            8.0%                               -      5.0%
  Over -75%                          -                          4.0%                            2.0%                             4.0%     2.5%
 Source: OIG analysis of second-quarter 2005 through second-quarter 2006 AMP data, October 2006.
*There were 49 noninnovator multiple-source drugs between the second and third quarters of 2005.
*Totals do not add up to 100% due to rounding.




          OEI-03-06-00350        E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S                      19
Δ      A P P E N D I X ~ D

   Agency Comments




OEI-03-06-00350   E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S   20 

A    P   P E N D      I X            ~           D            





    OEI-03-06-00350    E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S   21 

Δ   A C K N O W L E D G M E N T S                                                                           





                  This report was prepared under the direction of Robert A. Vito,
                  Regional Inspector General for Evaluation and Inspections in the
                  Philadelphia regional office, and David E. Tawes, Director of the
                  Medicare and Medicaid Prescription Drug Unit.

                  Other principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office include Jessica Demko, Roman Strakovsky
                  and Stephanie Yeager. Central office staff who contributed include
                  Sarah Craren and Gina Maree.




OEI-03-06-00350   E X A M I N I N G F L U C T U AT I O N S I N AV E R A G E M A N U F A C T U R E R P R I C E S   22
